              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




  Evaluation Report

  The Department's Unclassified
  Cyber Security Program - 2007




DOE/IG-0776                          September 2007
                            Department of Energy
                                 Washington,   DC 20585
                                 September 18, 2007




MEMOKANDLIM FOR THq SECRETARY
                        .                  r

                ,A F , ~ $ & M / ~ I
FROM:           Gregory     riednian
                lnspcctor General

SUBJECT:                 INFORMATIOH:
                         --                 Evaluation Report on "The Department's
                         Unclassified Cyber Security Program - 2007"

BACKGROUND

The Department of Energy expects to spend about $300 million in Fiscal Year (FY) 2007
to protect its investment in information technology resources. These protective act~vities
are critical to ensuring that systenis and data remain secure and available, especially in
light of the increasingly sophisticated probes and attacks on Departmental infonnation
technology resources. Experts note that successful attacks on Federal systems have
emboldened hackers and that attempts to penetrate agency systems will continue to grow.
As such, Department management has recognized the need for and has budgeted for a
strong and effective cyber security program. Such a program is essential to minimizing
adverse impacts on the Department's operations and preventing the unauthorized
exfiltration of sensitive, privacy, or ~nission-relateddata.

The Federal Information Security Management Act (FISMA) provides for the
overarching management and ovcrsiglit of infonnation security risks by requiring that
organizations design and implement controls to protect Fedcral infom~ationand systems.
As required by FISMA, the Office of Inspector General conducts an annual independent
evaluation to detennine whether the Department's unclassified cyber security program
adequately protects data and information systems. This niemorandum and the attached
report represent the results of our evaluation for FY 2007.

RESULTS OF EVALUATION

The Department had taken steps to improve cyber security practices and continued to
maintain strong network perimeter defenscs against malicious intruders and other
external threats. Certain problems, however, persist and additional action is needed to
reduce the risk of compromise to inforniation systems and data. Specifically:

       Continuing problems with the certification and accreditation of Department
       systems existed at various sites, specifically concerns relating to appropriately
       assessing risks and ensuring the adequacy of security controls;

       While some progress had been made, the Department had yet to establish a
       complex-wide inventory of infonnation systems;
       Contingency planning processes at several sites had been improved. However, a
       number of organizations still had not completed actions necessary to ensure that
       critical operations could be recovered or established at an alternate location in the
       event of a disaster;

       Most weaknesscs in access controls, configuration management, and change
       controls identified during our previous evaluation had been corrected. Yet,
       additional deficiencies were identified that impacted the Department's ability to
       protect computer resources from unauthorized modification, loss, or disclosure of
       infomlation; and,

       The Department could not always ensure that personal information collected and
       maintained on agency systems was adequately protected.

The risk of compromise to the Department's infomlation and systems remains higher than
acceptable. Headquarters programs and field sites still had not fully developed or
implemented policies that incorporated all Federal and Departmental cyber security
requirements. In addition, inadequate management action at various levels of the
Department, including tracking cyber security weaknesses to resolution, contributed to
the problen~sidentified.

The Department had in place an aggressive effort to address existing weaknesses and it
continued implementation of its plan to revitalize the cyber security program. For
instance, an overarching policy was issued that directed senior management to develop
and implement cyber security plans within their respective organizations. To support this
effort, the Office of the Chief Infornlation Officer began to issue supplenlental policy
documents in a number of areas, but the effort remained incomplete. During the course
of our evaluation, we also noted that a number of positive steps had been taken to help
ensure that personal information maintained in agency systems was protected. To aid the
Department in its ongoing efforts we have made several recommendations designed to
enhance overall controls.

Due to security considerations, information on specific vulnerabilities and locations has
been omitted from this report. Management officials at the sites evaluated were provided
with detailed information regarding identified vulnerabilities, and, in many instances,
initiated corrective actions.

MANAGEMENT REACTION

Management concurred with our findings and recommendations. Where appropriate, we
incorporated Management's suggestions into the body of the report.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Science
    Under Secretary of Energy
    Chief o f Staff
    Chief lnfomlation Officer
EVALUATION REPORT ON THE DEPARTMENT'S UNCLASSIFIED
CYBER SECURITY PROGRAM
-
                      -  2007     -
                                                    -                                                            --




TABLE OF
CONTENTS


     Unclassified Cyber Security Proqram

     Details of Finding ................................................................................. 1

     Recommendations and C o ~ ~ ~ m e .........................................................
                                       nts.                                                      ..8

     Appendices

     1.     Objective, Scope, and Methodology ..............................................10

     2.     Prior Reports ..................................................................................12

     3.     Management Comments ............................................................. 15
UNCLASSIFIED CYBER SECURITY PROGRAM

Program               The Department of Energy (Department or DOE) had taken
Improvements          a number of positive steps over the past year to improve its
                      cyber security posture. For instance, the Department
                      corrected various deficiencies disclosed in our evaluation
                      of The Department's Unclassified Cyber Security Program
                      – 2006 (DOE/IG-0738, September 2006), including certain
                      weaknesses relevant to certification and accreditation
                      (C&A), access controls, and change controls.

                      The Department also continued implementation of its plan
                      to revitalize its cyber security program by issuing DOE
                      Order 205.1A, Department of Energy Cyber Security
                      Management. This directive placed responsibility for
                      ensuring effective cyber security on the National Nuclear
                      Security Administration (NNSA) and program elements by
                      requiring them to develop and implement Program Cyber
                      Security Plans. To help support development of the
                      security plans, the Office of the Chief Information Officer
                      (OCIO) completed a number of cyber security related
                      guidance documents and has begun to issue Cyber Security
                      Technical and Management Requirements that address
                      critical areas and are designed to help achieve consistent
                      implementation of Federal and Department requirements.
                      However, the effort remained incomplete. We also noted
                      that the Department had made progress in protecting
                      Personally Identifiable Information, including conducting
                      internal reviews to determine whether adequate safeguards
                      were in place and taking additional measures to protect
                      personal information.

Managing Cyber
Related Risk          Risk Management

                      Although the Department had taken steps to improve the
                      management of its cyber security program, additional
                      action is needed to reduce the risk of compromise to
                      information systems and data. Our evaluation disclosed
                      that the number of overall findings issued to the
                      Department related to risk management remained
                      consistent with prior years. In particular, weaknesses
                      continued to exist in the areas of certification and
                      accreditation, maintaining a complete systems inventory,
                      and contingency planning. These processes are essential to
                      ensuring a complete and effective risk management
                      strategy for protecting information technology systems and
                      data.

________________________________________________________________
Page 1                                            Details of Finding
                                        Certification and Accreditation

                          Despite various recommendations for improvement, the
                          Department continued to have problems with the C&A of
                          its information systems. Prior year issues at four sites were
                          corrected, however, weaknesses in the C&A process at nine
                          sites and programs still existed. While Department and site
                          officials indicated that C&A procedures had been
                          performed on most of the Department's information
                          systems, we noted a number of deficiencies that adversely
                          impacted the completeness and overall quality of the
                          process. For instance:

                             •   Risk categorization determinations for information
                                 and systems, a critical step to determine the
                                 potential impact of a compromise of systems and
                                 data, had not been performed at five sites in
                                 accordance with National Institute of Standards and
                                 Technology (NIST) requirements. Specifically,
                                 sites did not assign risk categorizations as required
                                 and understated the risks associated with certain
                                 systems;

                             •   System security plans at seven sites were missing
                                 essential components such as risk assessments,
                                 descriptions of logical access controls, and system
                                 auditing;

                             •   Annual self-assessments of mandatory security
                                 controls required by the Federal Information
                                 Security Management Act – evaluations that
                                 provide a mechanism for program officials to
                                 identify deficiencies in security controls and take
                                 appropriate corrective action – were not performed
                                 at six sites;

                             •   Independent assessments of security controls that
                                 are to be performed in conjunction with the C&A
                                 process had not been completed at five sites; and,

                             •
                           One site had not undergone a C&A review of its
                           General Support Systems within the past three years
                           as required, operating without an approved
                           Authority to Operate accreditation, a condition
                           which could potentially result in undetected cyber
                           security weaknesses.
________________________________________________________________
Page 2                                                     Details of Finding
                      As noted by NIST, it is essential that agency officials have
                      complete and accurate information on the security status of
                      their information systems in order to make timely, credible,
                      risk-based decisions on whether to authorize operation of
                      those systems.

                                           Systems Inventory

                      Some inventory related improvements had been made;
                      however, the Department had not yet resolved system
                      inventory related weaknesses – a problem that has been
                      noted in evaluation reports for the last few years. Agencies
                      are required to develop an inventory that includes an
                      identification of the interfaces between each system and all
                      other systems or networks, including those not operated by
                      or under the control of the agency. As reported in the
                      evaluation of The Department's Unclassified Cyber
                      Security Program – 2006, the completion of a complex-
                      wide inventory was planned for September 2007.

                      At the time of our evaluation, the system inventory effort
                      remained incomplete. For example, three sites had not
                      identified all systems and major applications. In addition,
                      programs and sites continued to use inconsistent
                      approaches to defining and grouping systems. To help
                      address inventory issues, the Department was in the process
                      of developing an automated asset management system, but
                      had yet to fully deploy it. Without complete inventory
                      information, sites will continue to have difficulty planning
                      for and instituting the appropriate protective measures for
                      their systems.

                                         Contingency Planning

                      Even though some sites had addressed previously identified
                      contingency planning weaknesses, several still had not
                      adequately developed and tested contingency plans to
                      ensure that critical operations could be restored in the event
                      of a disaster. Specifically, three of five sites with
                      contingency planning problems identified during our Fiscal
                      Year (FY) 2006 evaluation continued to have problems in
                      this area. Similar weaknesses also existed at two additional
                      sites included in our current evaluation. For instance, plans
                      for recovering from a disaster at certain sites lacked
                      essential information such as information technology
                      services needed for continuing business operations or
________________________________________________________________
Page 3                                            Details of Finding
                      procedures for off-site storage of backup tapes. In addition,
                      sites had not established or tested alternate processing
                      facilities – decreasing their ability to resume mission
                      critical operations in a timely manner in the event that the
                      primary location became inoperable. As noted by NIST,
                      the ability to successfully implement contingency plans is
                      essential to mitigating the risk of system and service
                      unavailability.

Security Controls     While many of the security control deficiencies reported
                      during our previous evaluation had been corrected, the
                      Department continued to experience problems related to
                      access controls, segregation of duties, configuration
                      management, and change controls. These controls help
                      prevent unauthorized access and modification to
                      information systems and data from both internal and
                      external sources. Weaknesses in these areas existed at 12
                      separate sites.

                                                Access Controls

                      The Department continued to experience access control
                      weaknesses at various sites. Strong and functional controls
                      of this type are essential for ensuring that only authorized
                      individuals gain access to network or system resources.
                      Controls in this area consist of both physical and logical
                      measures designed to protect computer resources from
                      unauthorized modification, loss, or disclosure. Although
                      most of the access control problems identified during our
                      FY 2006 evaluation were corrected, similar weaknesses
                      were identified at additional field sites during our current
                      effort. Specifically:

                         •   Six sites had blank, default, or easily guessed
                             passwords. These included passwords for
                             administrator-level access that could allow
                             unauthorized access and changes to data and
                             security settings. Many of these deficiencies were
                             corrected as a result of our testwork, but two sites
                             had not implemented corrective actions, thus
                             exposing them to the risk of unauthorized access to
                             sensitive data and systems;




________________________________________________________________
Page 4                                            Details of Finding
                         •    Three sites had not conducted periodic management
                              reviews of user access to financial management
                              systems, limiting the sites' ability to adequately
                              monitor changes in access privileges, a situation
                              that could result in inappropriate access to data;
                              and,

                         •    Inadequate segregation of duties at two sites
                              permitted individuals to have access to data which
                              they were not entitled.

                             Configuration Management and Change Controls

                      Despite corrective actions taken by the Department to
                      address weaknesses in configuration management and
                      change controls, a significant number of problems still
                      existed. In particular, 11 sites were using versions of
                      application and operating system software that were
                      outdated or not appropriately patched. Failure to update
                      software with known vulnerabilities unnecessarily
                      increases the risk that systems could be compromised. In
                      addition, two sites had improperly configured networks that
                      permitted unauthorized internal access to systems and data.
                      The programs we reviewed had not completed but were
                      working to implement standard configurations for operating
                      systems mandated by the Office of Management and
                      Budget (OMB).

                      Several sites also had not implemented adequate change
                      control procedures – a process used by management to
                      identify, document, and authorize changes to system
                      hardware and software. For instance, one site did not
                      specifically require change authorization tracking which
                      prevented us from confirming whether changes to critical
                      applications had been authorized. In addition, even when
                      sites had developed change control policies, they were not
                      always able to document that modifications to systems had
                      been tested and approved. Implementing controls over
                      configuration management and system changes helps
                      ensure that unauthorized modifications are prevented or
                      detected.




________________________________________________________________
Page 5                                            Details of Finding
Privacy Information   The importance of protecting personal information has
Controls              received special emphasis due to recent disclosures that
                      significant amounts of personal data had been lost or stolen
                      from corporations, educational institutions, and Federal
                      government agencies. OMB has issued a number of policy
                      memoranda designed to protect the privacy of individuals'
                      data. However, the Department faces significant
                      challenges in this area. Specifically, our recent report on
                      Security over Personally Identifiable Information
                      (DOE/IG-0771, July 2007) identified that the Department
                      had yet to fully apply all protective measures. In addition,
                      the Department had not completed and approved all
                      required system Privacy Impact Assessments – reviews
                      performed to ensure that privacy information collected and
                      maintained by Federal agencies is adequately protected.

Cyber Security        The problems cited in our report occurred, at least in part,
Program Management    because Headquarters programs and field sites had not fully
                      developed or implemented policies that incorporated all
                      Federal and Departmental cyber security requirements. In
                      addition, the lack of oversight at various levels of the
                      Department, including effective use of Plans of Action &
                      Milestones (POA&M), contributed to the weaknesses
                      identified.

                        Cyber Security Policy Development and Implementation

                      Consistent with our previous evaluations, we found that
                      Department organizations had not always developed cyber
                      security policies that were aligned with Federal
                      requirements or ensured that requirements were
                      appropriately implemented by facility contractors. For
                      example, despite the requirement imposed by DOE Order
                      205.1A to implement cyber security controls through
                      Program Cyber Security Plans, we noted that two of the
                      four program plans we reviewed had not been approved. In
                      addition, the majority of the Technical and Management
                      Requirements – the authoritative policy to be incorporated
                      into the plans – remained in draft, including those
                      addressing essential areas such as C&A and contingency
                      planning. While work continues to address the problem
                      noted in our report on The National Nuclear Security
                      Administration's Implementation of the Federal
                      Information Security Management Act (DOE/IG-0758,
                      February 2007), NNSA's cyber security policies still did
                      not satisfy all Federal and Department requirements.

________________________________________________________________
Page 6                                            Details of Finding
                      Even when policies addressed certain Federal and
                      Department requirements, implementation remained
                      incomplete. For example, two sites failed to appropriately
                      categorize the risks to their systems even though required
                      by the Office of Science's Program Cyber Security Plan.
                      Inappropriate implementation of existing requirements also
                      contributed to access control weaknesses at five sites. In
                      addition, minimum security controls and contingency plans
                      had not been tested as required by established policies at
                      nine sites. While NNSA had initiated high-level
                      assessments of cyber security practices at certain sites,
                      these reviews were limited in scope and had not been
                      completed at all sites.

                                        Management Attention

                      The lack of effective management review by various levels
                      of Department management also contributed to the
                      problems cited in our report. For example, even though
                      management indicated in its response to our report on the
                      Department's Certification and Accreditation of
                      Unclassified Information Systems that improvement of the
                      Department's C&A process would be a priority in FY 2007,
                      the OCIO performed reviews of documentation supporting
                      the C&A process for only one corporate system. In
                      addition, the Department had fully addressed only 4 of 12
                      findings issued during our previous review relevant to the
                      C&A process. Furthermore, while certain organizations
                      had implemented rigorous oversight programs, problems
                      within NNSA persisted. For instance, a recent review of
                      one major weapons laboratory – completed by the Office of
                      Cyber Security Evaluations – found that the NNSA was not
                      exercising its management and oversight responsibilities to
                      ensure effective implementation of the unclassified cyber
                      security plan.

                      The Department also continued to experience problems
                      tracking and monitoring the remediation of cyber security
                      findings included in its POA&M. In particular:

                         •   Although the Department was working to
                             implement corrective actions, 7 of 25 cyber security
                             weaknesses identified during our FY 2006
                             evaluation were not included in the Department's
                             POA&M, and thus were not reported to OMB as
                             required;

________________________________________________________________
Page 7                                            Details of Finding
                        •   Four findings were reported as having corrective
                            actions completed even though our current
                            evaluation indicated that these issues had not been
                            fully addressed;

                        •   Sixty-seven percent of corrective actions were past
                            due, a significant increase from the previous year;
                            and,

                        •   While prioritization of corrective actions to address
                            POA&M weaknesses occurred at the site level, the
                            NNSA and Program Elements did not prioritize the
                            findings among all sites, increasing the potential
                            that items posing less risk would be addressed
                            ahead of more serious problems.

                     As noted in NIST guidance, POA&Ms are important for
                     managing an entity's progress towards eliminating gaps
                     between required security controls and those that are
                     actually in place.

Resources and Data   Without an increased focus on protecting its critical
Remain at Risk       technology resources, the risk of compromise to the
                     Department's information and systems remains higher than
                     necessary. The threat of compromise continues to grow as
                     the Department establishes additional systems with
                     increased network interconnections and adopts emerging
                     technologies. In addition, external network scanning and
                     probing activities being conducted by nefarious individuals
                     are escalating. As an example, the number of cyber
                     security incidents reported to the Computer Incident
                     Advisory Capability, including information system and
                     data compromises and introduction of malicious code, is at
                     its highest level in three years. Furthermore, heightened
                     emphasis on protecting personal information has
                     highlighted the importance of implementing effective
                     security controls over sensitive information maintained on
                     agency systems.


RECOMMENDATIONS      To correct the weaknesses identified in this report and
                     improve the effectiveness of the Department's cyber
                     security program, we recommend that the Department and
                     the NNSA Chief Information Officers, in coordination with
                     the Under Secretaries for Energy and Science, as
                     appropriate:

________________________________________________________________
Page 8                                           Recommendations
                         1. Correct, through the implementation of
                            management, operational, and technical controls,
                            each of the specific vulnerabilities identified in this
                            report;

                         2. Ensure that development and implementation of
                            cyber security policies, including Program Cyber
                            Security Plans, are in accordance with appropriate
                            Federal and Departmental requirements;

                         3. Perform compliance monitoring activities to ensure
                            the adequacy of cyber security program
                            performance; and,

                         4. Ensure that the POA&M is utilized as a
                            management tool for prioritizing corrective actions
                            and tracking all known cyber security weaknesses
                            to completion.


MANAGEMENT           The Department and NNSA agreed with the information
REACTION             contained in the report and concurred with each of the
                     specific recommendations. Management added that it
                     would take corrective actions on specific findings and
                     continue to work to improve its cyber security posture. The
                     NNSA provided comments and disclosed that it is working
                     to modify its policies to bring them in line with the rest of
                     the Department. In response to management comments, we
                     modified the recommendations, as appropriate.


AUDITOR              Management's comments are generally responsive to our
COMMENTS             recommendations.


                     .




________________________________________________________________
Page 9                              Recommendations and Comments
Appendix 1

OBJECTIVE                 To determine whether the Department of Energy's
                          (Department) Unclassified Cyber Security Program adequately
                          protected data and information systems.


SCOPE                     The audit was performed between February 2007 and
                          September 2007 at numerous locations. Specifically, we
                          performed an assessment of the Department's Unclassified
                          Cyber Security Program. The evaluation included a limited
                          review of general and application controls in areas such as
                          entity-wide security planning and management, access
                          controls, application software development and change
                          controls, and service continuity. Our work did not include a
                          determination of whether vulnerabilities found were actually
                          exploited and used to circumvent existing controls. The Office
                          of Cyber Security Evaluations performed a separate review of
                          classified and national security information systems.


METHODOLOGY               To accomplish our objective, we:

                              •   Reviewed applicable laws and directives pertaining to
                                  cyber security and information technology resources
                                  such as the Federal Information Security Management
                                  Act, OMB Circular A-130 (Appendix III), and DOE
                                  Order 205.1A;

                              •   Reviewed applicable standards and guidance issued by
                                  the National Institute of Standards and Technology;

                              •   Reviewed the Department's overall cyber security
                                  program management, policies, procedures, and
                                  practices throughout the organization;

                              •   Assessed controls over network operations and systems
                                  to determine the effectiveness related to safeguarding
                                  information resources from unauthorized internal and
                                  external sources;

                              •
                           Evaluated selected Headquarters' offices and field sites
                           in conjunction with the annual audit of the
                           Department's Consolidated Financial Statements,
                           utilizing work performed by KPMG LLP (KPMG), the
                           Office of Inspector General (OIG) contract auditor.
                           OIG and KPMG work included analysis and testing of
                           general and application controls for systems as well as
                           vulnerability and penetration testing of networks; and,
___________________________________________________________________
Page 10                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                         •   Evaluated and incorporated the results of other cyber
                             security review work performed by OIG, KPMG, the
                             Department's Office of Cyber Security Evaluations, and
                             the Government Accountability Office.

                      We also evaluated the Department's implementation of the
                      Government Performance and Results Act and determined that
                      it had established performance measures for unclassified cyber
                      security. We did not rely solely on computer-processed data to
                      satisfy our objectives. However, computer-assisted audit tools
                      were used to perform probes of various networks and drives.
                      We validated the results of the scans by confirming the
                      weaknesses disclosed with responsible on-site personnel and
                      performed other procedures to satisfy ourselves as to the
                      reliability and competence of the data produced by the tests.

                      The evaluation was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included test of internal controls and compliance
                      with laws and regulations to the extent necessary to satisfy our
                      objective. Accordingly, we assessed internal controls
                      regarding the development and implementation of automated
                      systems. Because our review was limited, it would not
                      necessarily have disclosed all internal control deficiencies that
                      may have existed at the time of our evaluation.

                      Officials from the Office of Chief Information Officer and the
                      NNSA waived an exit conference.




___________________________________________________________________
Page 11                               Objective, Scope, and Methodology
Appendix 2


                                   PRIOR REPORTS

Office of Inspector General Reports

   •   Audit Report on Security over Personally Identifiable Information (DOE/IG-0771,
       July 2007). The Department of Energy (Department) had not fully implemented
       all protective measures recommended by the Office of Management and Budget
       (OMB) and required by the National Institute of Standards and Technology
       (NIST). In particular, sites reviewed had not identified information systems
       containing Personally Identifiable Information (PII), or fully evaluated the risks of
       exposing PII stored in such systems; controls for securing remote access to site-
       level systems containing personal information had not been fully implemented;
       and sites had not identified mobile computing devices containing PII nor ensured
       that this information was encrypted as required by OMB. These problems
       occurred because Headquarters and site-specific policies did not address all OMB
       and NIST requirements. Even when policies were clear, programs and sites did
       not always enforce the requirements to ensure that all necessary controls were in
       place for protecting PII.

   •   Inspection Report on Excessing of Computers Used for Unclassified Controlled
       Information at Lawrence Livermore National Laboratory (DOE/IG-0759, March
       2007). The National Nuclear Security Administration (NNSA) delayed having
       Lawrence Livermore National Laboratory (LLNL) implement Departmental
       policy on clearing, sanitizing, and destroying memory devices for almost two and
       a half years after the policy was issued. Although Departmental directives on the
       topic were issued in February 2004 and June 2005, NNSA waited while its Office
       of the Chief Information Officer (OCIO) drafted a policy letter to provide LLNL
       and other NNSA sites with specific requirements for clearing, sanitizing, and
       destroying unclassified controlled information on computers and electronic media
       devices. Due to the delay in implementing the Department directives at LLNL,
       the Laboratory did not establish certain site-wide procedures and internal controls
       necessary to ensure the proper clearing, sanitizing, and destroying unclassified
       controlled information on computers and electronic memory devices.

   •   Audit Report on The National Nuclear Security Administration's Implementation
       of the Federal Information Security Management System (DOE/IG-0758,
       February 2007). Cyber security weaknesses have been a continuing challenge for
       NNSA. Specifically, NNSA did not always properly implement its own guidance
       as well as Departmental and Federal cyber security requirements. In addition,
       NNSA had not performed regular monitoring activities essential to evaluating the
       adequacy of cyber security program performance. As a consequence, NNSA's
       unclassified information systems and networks and the data they contain remain
       at risk of being compromised, including the possible unlawful diversion of
       operational data, PII, or critical information.


________________________________________________________________
Page 12                                               Prior Reports
Appendix 2 (continued)

  •   Inspection Report on Excessing of Computers Used for Unclassified Controlled
      Information at the Idaho National Laboratory (DOE/IG-0757, February 2007).
      Personnel at Idaho National Laboratory (INL) had sold a computer containing
      unclassified controlled information, including personal information, at a public auction
      in October 2004. The contractor who operates the INL had failed to properly update
      their procedures for computer disposal during a 16-month period beginning in
      November 2004. INL did not have adequate policies and internal controls for
      excessing computers and other electronic memory devices to prevent the unauthorized
      dissemination of unclassified controlled information.

  •   Audit Report on Certification and Accreditation of Unclassified Information Systems
      (DOE/IG-0752, January 2007). Despite recent efforts by the Department to enhance
      cyber security guidance, many systems were not properly certified and accredited prior
      to becoming operational. For example, of the 14 sites reviewed, 9 sites had not always
      properly categorized security levels or risk of damage to major or general support
      systems and information contained within, or had not adequately tested and evaluated
      security controls. In many instances, senior agency officials accredited systems
      although required documentation was inadequate or incomplete, such as incomplete
      inventories of software and hardware included within defined accreditation boundaries.
      In addition, the OCIO and program elements did not adequately review completed
      activities for quality or compliance with requirements.

  •   Special Report on Management Challenges at the Department of Energy (DOE/IG-
      0748, December 2006). Cyber security was identified as a management challenge area
      due to several Office of Inspector General reviews that highlighted the need for
      improvements in the Department's overall cyber security program. In particular, in
      spite of recent improvements in reporting methodologies and standards, the Department
      had not yet completed a complex-wide inventory of its information systems; C&A of
      many systems had not been performed or were inadequate; contingency planning had
      not been completed for certain critical systems; and, weaknesses existed relevant to
      access and change controls designed to protect computer resources.

  •   Special Inquiry on Selected Controls over Classified Information at the Los Alamos
      National Laboratory (OAS-SR-07-01, November 2006). Classified documents were
      found on a flash drive during a search by Los Alamos County Police at the home of a
      Los Alamos National Laboratory contractor employee. From this inquiry, we found
      that the security framework at the lab was seriously flawed. Contributing factors were
      that security policy in a number of key areas was non-existent, applied inconsistently,
      or not followed. In addition, monitoring by both Laboratory and Federal officials was
      inadequate; critical security functions were not adequately segregated; and, physical
      verification of the accuracy of security plans by Federal and Laboratory officials was
      not performed.




___________________________________________________________________
Page 13                                                  Prior Reports
Appendix 2 (continued)

    •   Evaluation Report on the Department's Unclassified Cyber Security Program - 2006
        (DOE/IG-0738, September 2006). The evaluation identified continuing deficiencies in
        the Department's cyber security program that exposed its critical systems to an
        increased risk of compromise. In particular, weaknesses existed relevant to systems
        inventory, system C&A, contingency planning, physical and logical access controls,
        configuration management, and change controls. Problems occurred, at least in part,
        because Department organizations had not always ensured that Federal requirements,
        Department policies, and cyber security controls were adequately implemented and
        conformed to Federal requirements, most notably by field organizations and facility
        contractors.

Government Accountability Office Reports

    •   Information Security: Despite Reported Progress, Federal Agencies Need to Address
        Persistent Weaknesses (GAO-07-837, July 2007).

    •   National Nuclear Security Administration: Additional Actions Needed to Improve
        Management of the Nation's Nuclear Programs (GAO-07-36, January 2007).

    •   Privacy: Preventing and Responding to Improper Disclosures of Personal Information
        (GAO-06-833T, June 2006).

Office of Cyber Security Evaluations Reports

    •   Draft Independent Oversight Inspection of Cyber Security at the U.S. Department of
        Energy Headquarters, August 2007.

    •   Independent Oversight Inspection of Cyber Security at the Richland Operations Office
        and the Hanford Site, June 2007.

    •   Independent Oversight Inspection of Cyber Security at the Strategic Petroleum Reserve,
        April 2007.

    •   Independent Oversight Inspection of Cyber Security at the Los Alamos Site Office and
        Los Alamos National Laboratory – Unclassified Cyber Security, February 2007.


.




___________________________________________________________________
Page 14                                                  Prior Reports
Appendix 3




___________________________________________________________________
Page 15                                         Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 16                                         Management Comments
                                                             IG Report No. DOE/IG-0776

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
